                Briefing Report




The SBA’s Loan Management and Accounting System –
        Incremental Improvement Projects
                                 U.S. Small Business Administration
                                     Office of Inspector General
                                       Washington, D.C. 20416


                                                                                Report Transmittal
                                                                                    Report No. 13-11

Date:           March 12, 2013

To:             Paul T. Christy
                Chief Operating Officer

Subject:        The Small Business Administration’s Loan Management and Accounting System
                Incremental Improvement Projects

This report presents the results of our review of the Small Business Administration’s effort to mod-
ernize its loan management system and migrate off the mainframe environment. Specifically, this
report addresses issues identified in the planning, management, and oversight of SBA’s ongoing mi-
gration efforts. We have incorporated the formal comments from the Chief Operating Officer and
the Executive Steering Council into this report.

Please provide your response to this report for each recommendation on the attached SBA Forms
1824, Recommendation Action Sheet, by April 11, 2013.

Consistent with OMB Circular A-50, your response should include the corrective action(s) taken or
planned for each recommendation and the target date(s) for completion. If you disagree with the
recommendations, please fully explain the reasons for disagreement. Please include the legal basis
for disagreement based on interpretation of law, regulations, or the authority of officials to take or
not take action. You may also propose alternative actions to those recommended that you believe
would better address the issues presented in this report.

In order to fulfill our responsibility under the Inspector General Act, we are providing copies of our
report to the appropriate congressional committees responsible for oversight of the Small Business
Administration. We will also post this report on the Office of Inspector General website for public
dissemination.

We appreciate the courtesies and cooperation of the Office of Capital Access and the Office of the
Chief Information Officer during this review. If you have any questions concerning this report,
please call me at (202) 205-7390 or Jeffrey Brindle, Director, Information Technology and Financial
Management Group, (202) 205-7490.

                                                  ***


/s/
John K. Needham
Assistant Inspector General for Auditing
Briefing Report
Table of Contents
Highlights ............................................................................................................................................... 3

Background ............................................................................................................................................ 4

Approach ................................................................................................................................................ 5

Overall Results ....................................................................................................................................... 5

Finding 1: The SBA Needs an Incremental Improvement Project to Migrate New Software ......... 6

Finding 2: The Scope of the Root Cause Analysis Project was Changed ........................................... 6

Finding 3: The SBA’s Loan Management and Accounting System Incremental Improvement
Projects ................................................................................................................................................... 7

Finding 4: Quality Assurance Program Did not Exist ......................................................................... 8

Finding 5: Independent Verification and Validation Program Did Not Exist ................................... 9

Agency Comments and Office of Inspector General Response ......................................................... 10

Appendix I: Agency Comments .......................................................................................................... 12




                                                                                   2
Highlights

Why the OIG Performed this Review
Since 2004, a significant management challenge
                                                           The SBA’s Progress in Reducing Mainframe
facing the SBA is the modernization of the loan
                                                           Transactions
accounting process, where the Loan Accounting
System is the central hub. The Loan Accounting                  10.29 million transactions were processed on
System processed and managed a loan portfolio                    SBA’s mainframe during the last six months of
totaling over $99 billion in FY 2011.                            FY 2011.
                                                                5.79 million transactions were processed on
What the OIG Reviewed                                            SBA’s mainframe during the last six months of
The OIG reviewed the Loan Management                             FY 2012.
Accounting System – Incremental Improvement                            This decrease represents a 44%
Projects (LMAS-IIPs), which included the:                                 reduction of mainframe utilization
                                                                          from FY 2011 to FY 2012.
   Systems Development Life Cycle                              All User Interface transactions are scheduled
                                                                 to be migrated off the mainframe by
    deliverables and documentation for LMAS
                                                                 September 2013.
    incremental projects.
   Root Cause Analysis and User Interface
    Migration.
   Implementation and operation of a Quality          During our review of the LMAS IIPs, the OIG also
    Assurance (QA) program and an                      found that:
    Independent Verification and Validation
    (IV&V) program for the LMAS-IIPs.                         The SBA did not have an incremental
                                                               improvement project to migrate its newly
What the OIG Found                                             created COBOL code into production.
The OIG found that the SBA successfully                       The Root Cause Analysis Project had been
migrated the data-entry of over 44% of its loan                altered from its initially approved project.
and lending transactions from mainframe data-                 The User Interface Migration Project screens
entry to web-based data entry, the first step in               were not security tested and validated.
fully migrating off SBA’s legacy mainframe and                The QA and IV&V programs did not exist.
utilizing updated technology.
                                                       The LMAS-IIP is A Major
                                                       Management Challenge for the SBA
                                                       The LMAS-IIP is addressed in Challenge 8 of the
         Reduction of Mainframe
                                                       OIG’s annual report The Most Serious
         Transactions in Millions                      Management Challenges Facing the SBA, “The
    11                                                 SBA needs to modernize its Loan Accounting
                  10.29                                System and migrate it off the mainframe.”
    10
    9                                                  Similar issues in this challenge are related to:
    8
                                                              planning the migration off the mainframe,
    7                                                          and
    6                                                         quality assurance and independent
                                     5.79
                                                               verification and validation.
    5
              2011               2 012

                                                   3
Background

The Loan Management and                                   The LMAS Incremental Improvement
Accounting System (LMAS)                                  Projects (IIPs)
Since 2004, one of the single greatest manage-            The LMAS-IIPs were designed to be a series of
ment challenges facing the SBA is the moderni-            focused and cost-effective projects to upgrade
zation of the loan accounting process, where the          existing financial software and application mod-
Loan Accounting System serves as the central              ules in the SBA’s Loan Accounting System that
hub. The Loan Management Accounting System                included:
is:
                                                             Migrating these modules off of SBA’s outdat-
   A collection of transaction data entry screens            ed mainframe environment;
    for SBA loan and lending transactions that               The development and migration of user in-
    are directly entered into the mainframe for               terface screens from SBA’s mainframe to
    processing.                                               newer technology (in its most recent itera-
   A daily cycle of loan and lending transac-                tion), and
    tions― processed nightly― that update the                Conforming with OMB’s Memorandum
    database and includes information from oth-               10-26, Immediate Review of Financial Sys-
    er SBA systems.                                           tems IT Projects, which requires agencies to
                                                              split large development projects into smaller
The Loan Management Accounting System pro-                    simpler segments with clear deliverables.
cessed and managed a loan portfolio that totaled
over $99 Billion in FY 2011.



LMAS-IIP                  Description                                                          Status

Complete the R12          Upgrade SBA’s administrative accounting and management sys-          Completed
upgrade                   tem to Oracle Financials.

Migrate Denver Finance    Migrate SBA’s legacy databases at its Denver office to its current   In process
from Sybase to Oracle     database infrastructure.

Migration of user         To migrate all user interface components from the legacy main-       Nearing
interfaces                frame platform to SBA’s current web-based infrastructure.            Completion

COBOL Port                Convert the Unisys proprietary COBOL code to a version of            In process
                          COBOL compatible with UNIX.

Document Loan             Document the new processes in order to capture and transfer          In process
Accounting                knowledge about the new LMAS environment.

Root Cause Analysis       Analyze remaining issues and develop plans to prioritize addi-       Scope changed
                          tional projects to address SBA’s most important business needs.

Implement                 Implement the improvements identified by the root cause analy-       Not started
Improvements              sis and the analysis of new processes.



                                                      4
Approach                                               Overall Results

Objective                                              This evaluation covered the period from
                                                       January 2011, when OMB granted approval of the
The objective of the OIG Review was to deter-          LMAS-IIP, and November 2012 when we complet-
mine the progress of the Loan Management               ed fieldwork.
Accounting System Program (LMAS) – Incre-
mental Improvement Projects (IIP) since the            In Fiscal Year 2012, the SBA successfully migrated
issuance of Audit Report 10-14, Adequacy of            the data-entry of 44% of its loan and lending
Quality Assurance Oversight of the Loan                transactions from its mainframe data-entry to
Management Accounting System Project on                web-based data-entry.
September 13, 2010.
                                                       This migration was a successful first step in fully
                                                       migrating off SBA’s legacy mainframe and utiliz-
Scope and Methodology
                                                       ing updated technology.
We performed our review in accordance with             The OIG identified five findings that put the de-
Quality Standards for Inspections and Evalua-          velopment of this project at risk for not meeting
tions issued by the Council of Inspectors Gener-       the needs and expectations of the SBA, the Office
als on Integrity and Efficiency.                       of Management and Budget (OMB), and Con-
                                                       gress. These findings discussed, discussed fur-
To conduct our evaluation, we examined:                ther below, are as follows:

   The SBA’s progress against open audit rec-            The first issue was that the SBA does not
    ommendations and challenge #8 of the                   have an incremental improvement project to
    FY 2012 Report on the Most Serious Manage-             migrate its newly created COBOL code into
    ment and Performance Challenges Facing the             production.
    Small Business Administration, “The SBA               The second issue concerned the Gap Analysis
    needs to modernize its Loan Accounting                 and Strategic Planning Project for the
    System and migrate off the mainframe.”                 LMAS-IIP, which included a Root Cause
   The interim progress of the ongoing                    Analysis, as approved by the SBA’s Business
    LMAS-IIPs.                                             Technology Investment Council (BTIC) and
                                                           OMB.
To determine progress we compared agency                  The third issue related to the LMAS-IIP User
actions against criteria set by OMB Memoranda,             Interface Migration project screens, which
NIST Special Publications, and SBA Standard                were not tested and validated by the SBA’s
Operating Procedures.                                      Office of Chief Information Officer, Infor-
                                                           mation Security.
                                                          The fourth and fifth issues related to the
                                                           LMAS-IIP Quality Assurance (QA) and Inde-
                                                           pendent Verification and Validation (IV&V)
                                                           programs, which did not exist during the
                                                           LMAS-IIP.




                                                   5
Findings 1 & 2

Finding 1: The SBA Needs to Create                        There is currently no LMAS project to mi-
an additional Incremental                                  grate the batch COBOL systems from the
Improvement Project to Migrate its                         legacy platform to a more up-to-date and
new COBOL Code into Production                             non-proprietary production environment.
                                                          The current COBOL Port IIP identifies the
The SBA does not have an IIP, as recommended               code converted into a test environment but
by OMB, to migrate its newly created COBOL                 never specifically identifies implementing
code into production.                                      the new code into production, which is nec-
                                                           essary for the LMAS to be functional.
   Currently, the SBA has an IIP (the COBOL
    Port) to convert its Loan Accounting System        As a result, the SBA may be developing code
    with proprietary COBOL code to a version           that might not be implemented in its computing
    of COBOL that is compatible with UNIX.             environment.
    This conversion of COBOL code, if imple-
    mented on a new processing platform,               Recommendation 1
    would allow the SBA to fully migrate off its
    legacy mainframe environment to a more             We recommend that the SBA adopt a new IIP
    up-to-date and non-proprietary COBOL               under LMAS to facilitate the transfer of data and
    environment.                                       move its new COBOL code to a full production
   The absence of an improvement project oc-          environment.
    curred because existing project plans did
    not include production use of the newly                                   ***
    ported COBOL code.
                                                       Finding 2: The Scope of the Root
According to OMB Memorandum 10-26, Imme-
                                                       Cause Analysis Project was Changed
diate Review of Financial Systems IT Projects:
                                                       to Only Review Funds Control and
   Agencies should prioritize their needs and         Develop a Data Dictionary
    functionality to focus on the most critical
    business needs to avoid cost overruns and
    lengthy delays.                                    The LMAS-IIP Root Cause Analysis Project, as
   The most critical functionality should be          approved by the SBA’s BTIC and OMB, had been
    delivered first, and functions of lesser im-       altered from its initially approved project —
    portance can be considered for subsequent          analyzing the completed IIPs and making rec-
    delivery.                                          ommendations on new potential IIPs—to two
                                                       projects on (1) funds control and (2) the devel-
The SBA briefed OMB in March 2012 on the sta-          opment of a data dictionary.
tus of the LMAS project. The SBA recognized
the importance of migrating the batch COBOL            The OMB’s Memorandum 10-26 requires that
systems from the legacy platform to a more             after the most critical functional needs are in
up-to-date and non-proprietary COBOL envi-             place, further prioritization of secondary needs
ronment.                                               should be performed. Therefore, revised pro-
                                                       jects plans should prioritize the most critical
We analyzed the seven IIPs and determined              remaining financial functions.
that:

                                                   6
                                                                                        Finding 3

The change of the scope of the Root Cause Anal-
ysis occurred without BTIC approval. The origi-         Finding 3: New LMAS User Interface
nal purpose of the Root Cause Analysis was to           Screens were not Validated and Tested
identify areas where completed IIPs had remain-         by OCIO—IT Security Before They
ing issues or desired enhancements.                     Were Put into Production
   Any gaps that were not addressed by the             The SBA had implemented new LMAS user inter-
    completed IIPs would be identified and ad-          face screens as early as October 15, 2011. However,
    dressed in future projects.                         the SBA did not perform a security impact analy-
   The original Root Cause Analysis was done           sis on these new user interface screens before
    to ensure that the LMAS-IIPs would meet             they were put into production. Therefore, the
    full potential, and successfully migrate off        SBA unintentionally invalidated the Electronic
    SBA’s mainframe computer system.                    Transaction (E-Tran) System Authority-to-
                                                        Operate since they did not test the LMAS screens
The reduced scope of the Root Cause Analysis            before they were put into production.
created a situation in which the LMAS-IIPs no
longer had the capability to analyze identified         The OCIO—IT Security was unaware that the
issues and develop plans to prioritize additional       new LMAS user interface screens had entered into
projects to address SBA’s most important busi-          production in the E-Tran System when we first
ness needs.                                             met with them in August 2012. As a result of our
                                                        meeting, IT Security notified us that they would
Recommendation 2                                        immediately address this with the LMAS Project
                                                        Director and have a Security Impact Analysis per-
We recommend that the SBA ensure that the               formed on the LMAS-IIP user interface screens.
Root Cause Analysis IIP be revised so that it
conforms to the scope originally approved by            Under the Federal Information Security Manage-
the BTIC. The Root Cause Analysis should:               ment Act, LMAS user interface screens are re-
                                                        quired to be validated and tested as a part of a
(1) identify the most critical business needs of        major modification to the E-Tran system Authori-
    the SBA;                                            ty-To-Operate before the new User Interface
(2) analyze remaining issues when each LMAS-            Screens are put into production. Further, the
    IIP is completed; and                               NIST Special Publication, Guide for Applying the
(3) develop plans to prioritize additional pro-         Risk Management Framework to Federal Infor-
    jects to address SBA’s most important busi-         mation Systems (SP 800-37), requires that:
    ness needs.
                                                           A security impact analysis should be conduct-
                                                            ed by the organization when changes are pro-
                       ***
                                                            posed to determine the extent changes to the
                                                            information system affect the security of the
                                                            system.
                                                           The information system owner should consult
                                                            with appropriate organizational officials prior
                                                            to implementing any security-related changes
                                                            to the information system or its operating
                                                            environment.


                                                    7
Finding 4

Recommendation 3                                          the QA team functions. A functioning QA pro-
                                                          gram would have identified and reported to the
We recommend that the Office of Chief Infor-              LMAS Executive Steering Committee the major
mation Officer—IT Security perform a Security             scope changes to the Root Cause Analysis IIP as
Impact Analysis on the E-Tran user interface              identified in Finding 2 in this report.
screens to determine the security implications of
                                                          The SBA’s Standard Operating Procedure 90 41
the new user interface screens.
                                                          0, Procedures for Managing and Assessing the
                                                          Quality of SBA Information Technology Projects
Recommendation 4                                          states that the purpose of the IT QA program is
                                                          to:
We recommend that the Office of Chief Infor-
mation Officer— IT Security, in conjunction with          1) provide clear guidance in the delivery of
the SBA Office of Capital Access, initiate the pro-          quality IT deliverables,
cess of reauthorization of E-Tran for operation           2) ensure quality in the acquisition, design,
due to the changes to the operating environment.             development, testing, implementation and
                                                             operation of IT programs, and
                        ***                               3) conduct QA assessments on Agency IT ac-
                                                             quisitions, investments, programs, projects
Finding 4: The LMAS-IIP Quality                              and operations.
Assurance Program Did Not Exist At
the Time of Our Review                                    Additionally, according to OMB Memorandum
                                                          10-26, Immediate Review of Financial System IT
                                                          Projects, ongoing, transparent system oversight
                                                          is required of all agencies. Specifically, agencies
The LMAS-IIP Quality Assurance (QA) program               should identify, up-front, a series of milestones,
did not exist during the time of our review. This         warning flags, and stop-points, which, if deemed
resulted in a lack of adequate systems develop-           necessary, can cause a project to be suspended
ment project oversight. Without an effective QA           and returned to planning. This is of particular
capability, an independent advisor reporting on           concern since our prior audit on LMAS1 reported
compliance with BTIC and LMAS Executive Steer-            that:
ing Committee mandates did not exist.
                                                              Although a QA manager was added to the
We requested all QA assessments of the                         project, he was unable to dedicate a suffi-
LMAS-IIP Program from the QA Manager.                          cient amount of time to the project due to
No QA assessments were provided during the                     his other workload demands, and
timeframe of our review. The QA manager ex-
plained that:                                                 The SBA’s management stated they would
                                                               add a full-time QA Manager responsible for
Along with his other duties, he did not have ade-             the IT QA program, and additional re-
quate resources to perform QA reviews of LMAS-                 sources, such as contracted support specific
IIP deliverables, and that the SBA was in the pro-             to the LMAS IT QA function.
cess of obtaining contractor support to perform

1
 OIG Audit Report 10-14, Adequacy of Quality Assurance Oversight of the Loan Management Accounting
System Project, issued September 13, 2010.
                                                      8
Finding 5

Recommendation 5                                       The QA manager, who also manages the IV&V
                                                       program, explained that:
We recommend that the Office of Chief Infor-
mation Officer implement a Quality Assurance              Adequate resources to perform IV&V reviews
program that reports compliance at the project             of LMAS-IIP deliverables were not obtained,
level to the ESC and the BTIC, at regular inter-           and that the SBA was in the process of obtain-
vals.                                                      ing contractor support to perform IV&V func-
                                                           tions.
                       ***
                                                       During IV&V testing, a functioning IV&V Program
                                                       should have found that the SBA’s IT Security
Finding 5: The LMAS-IIP Independent                    Office had not been a member of the LMAS-IIP
Verification and Validation Program                    and had not performed a Security Impact Analysis
Did Not Exist                                          on LMAS user interface screens.

                                                       The lack of an IT Independent Verification and
The SBA did not have an operational Independ-          Validation program is of concern since our prior
ent Verification and Validation program, a key         audit on LMAS (See Footnote 1), since:
oversight component, during the LMAS-IIP. As
a result, there is less assurance that LMAS-IIP           Eliminating IV&V testing for the LMAS pro-
deliverables meet their user and security re-              ject, the SBA is at risk of deploying a mission
quirements before being implemented into pro-              critical system with undetected errors and
duction.                                                   with limited assurances that program and
                                                           functional requirements are fully satisfied.
The SBA’s Standard Operating Procedure                    The SBA responded to the prior audit by stat-
90 41 0—Procedures for Managing and Assessing              ing that LMAS would conform to the QA
the Quality of SBA Information Technology Pro-             Standard Operating Procedures when those
jects—provides guidance on SBA’s IT Inde-                  procedures became effective.
pendent Verification and Validation
(IV & V) program:                                      Recommendation 6

                                                       We recommend that the Office of Chief Infor-
   Independent Verification and Validation is
                                                       mation Officer implement an Independent Verifi-
    the process of contracting with an inde-
                                                       cation and Validation program for the LMAS-IIP
    pendent source to verify and validate that
                                                       that tests and validates that each IIP meets its pro-
    the IT deliverables meet the requirements as
                                                       gram and functional requirements.
    outlined in the contract or statement of
    work [or project requirements].

We requested all IV&V reports of the LMAS-IIP
Program from the program manager, but no
reports were provided during our review.




                                                   9
Agency Comments: Recommendations 1-4

                                                           Agency Comments: The ESC concurs that the
                                                           Root Cause Analysis project should address
   We provided a draft of this report to the SBA
                                                           SBA’s most important business needs….SBA’s
      Chief Operating Officer (COO) dated
                                                           remaining issues are analyzed and prioritized
January 23, 2013. On February 25, 2013, the COO
                                                           within each SBA organization’s operations and
    submitted formal comments for the LMAS
                                                           maintenance activities.
  Executive Steering Committee (ESC) which are
 included in their entirety in the appendix to this
                                                           OIG Response: We consider management’s
report. The ESC concurred with our findings and
                                                           comments to be responsive to the recommen-
recommendations. A summary of management’s
                                                           dation.
 comments, followed by our responses are below.
                                                                                  ***
                                                           Recommendation 3

                                                           We recommend that the Office of Chief Infor-
Recommendation 1                                           mation Officer IT Security perform a Security
                                                           Impact Analysis on the E-Tran user interface
We recommend that the SBA adopt a new Incre-               screens to determine the security implications of
mental Improvement Project under LMAS to fa-               the new user interface screens.
cilitate the transfer of data and move its new
COBOL code to a full production environment.               Agency Comments: The ESC concurs with the
                                                           recommendation for IT Security to perform a
Agency Comments: The ESC concurs. This                     Security Impact Analysis on E-TRAN.
effort will be aligned with the agency’s overall
data center consolidation strategy.                        OIG Response: We consider management’s
                                                           comments to be responsive to the recommen-
OIG Response: We consider management’s                     dation.
comments to be responsive to the recommenda-                                      ***
tion.                                                      Recommendation 4
                       ***
Recommendation 2                                           We recommend that the Office of Chief Infor-
                                                           mation Officer IT Security, in conjunction with
We recommend that the SBA ensure that the                  the SBA Office of Capital Access, initiate the pro-
Root Cause Analysis Project conforms to the                cess of reauthorization of E-Tran for operation
scope originally approved by the BTIC. The Root            due to the changes to the operating environ-
Cause Analysis should:                                     ment.

(1) identify the most critical business needs of           Agency Comments: The ESC concurs with the
    the SBA;                                               recommendation for IT Security to perform
(2) analyze remaining issues when each LMAS-               reauthorization of E-TRAN.
    IIP is completed; and
(3) develop plans to prioritize additional projects        OIG Response: We consider management’s
    to address SBA’s most important business               comments to be responsive to the recommen-
    needs.                                                 dation.
                                                                                  ***


                                                      10
Agency Comments: Recommendations 5 & 6

Recommendation 5
We recommend that the Office of Chief Infor-
mation Officer implement a Quality Assurance
program that reports compliance at the project
level to the ESC and the BTIC, at regular inter-
vals.

Agency Comments: The ESC concurs with the
recommendation for OCIO to implement a QA
program that reports at the project level to the
ESC and BTIC.

OIG Response: We consider management’s
comments to be responsive to the recommenda-
tion.

                       ***

Recommendation 6
We recommend that the Office of Chief Infor-
mation Officer implement an Independent Verifi-
cation and Validation program for the LMAS-IIP
that tests and validates that each IIP meets its
program and functional requirements.

Agency Comments: The ESC concurs with the
recommendation for OCIO to implement an
Independent Verification and Validation pro-
gram for the LMAS-IIP that tests and validates
that each IIP meets its program and functional
requirements.

OIG Response: We consider management’s
comments to be responsive to the recommenda-
tion.




                                                   11
                           U.S. Small Business Administration
                                   W ASHINGTON, D.C. 20416



    DATE:          February 25, 2013
       TO:         John K. Needham
                   Assistant Inspector General for Auditing
    FROM:          Paul Christy
                   Chief Operating Officer
 SUBJECT:          SBA Response to Briefing Report for the SBA's LMAS/IIP's
       CC:         Marie Johns, Deputy Administrator
                   Stephen Kucharski, Office of Capital Access


    This memo transmits SBA’s response and comments to the findings and recommendations
included in your draft Briefing Report for The SBA Loan Management and Accounting System
(Project No. 12-012).

   The LMAS project team met with the Executive Steering Council (ESC) and briefed the
ESC and its chair, Deputy Administrator Marie Johns. The ESC approved the management re-
sponses and the expanded document which is attached to this memo.

    The ESC looks forward to working with you and your team to continually assess and moni-
tor the successful completion of this critical project.



Attachment




                                             12
                        `




        U.S. Small Business Administration




Response to Office of Inspector General (OIG)
              Project No, 12-012
               February 25, 2013




                        13
    Contents
    1. Executive Summary ....................................................................................... 2

    2. Background ................................................................................................... 3

    3. Response to OIG Recommendations ............................................................. 4

    3.1. Recommendation 1 Response .................................................................... 4

    3.2. Recommendation 2 Response .................................................................... 4

    3.3. Recommendation 3 Response .................................................................... 4

    3.4. Recommendation 4 Response .................................................................... 4

    3.5. Recommendation 5 Response .................................................................... 5

    3.6. Recommendation 6 Response .................................................................... 5




1

                                                           14
1. Executive Summary
This document is intended to respond to the Office of Inspector General’s (OIG) report for project
number 12-012 dated January 23, 2013. The report presents OIG’s findings on a review of the SBA’s
Loan Management and Accounting System (LMAS) Incremental Improvement Projects (IIPs).
The OIG findings include:
      SBA does not have an IIP to migrate its newly created COBOL code into production;
      Root Cause Analysis project has been altered from its initially approved project;
      Screens migrated from the User Interface Migration project were not security tested and
       validated;
      Quality Assurance (QA) and Independent Verification and Validation (IV&V) program did not
       exist during the review of the LMAS-IIPs.

To address the above findings, OIG has made the following recommendations:
      Recommendation 1: We recommend that the SBA adopt a new Incremental Improvement
        Project under LMAS to facilitate the transfer of data and move its new COBOL code to a full
        production environment.
      Recommendation 2: We recommend that the SBA ensure that the Root Cause Analysis
        Project conforms to the scope originally approved by the BTIC. The Root Cause Analysis
        should: (1) identify the most critical business needs of the SBA; (2) analyze remaining issues
        when each LMAS IIP is completed; and (3) develop plans to prioritize additional projects to
        address SBA’s most important business needs.
      Recommendation 3: We recommend that the Office of the Chief Information Officer IT
        Security perform a Security Impact Analysis on the E-Tran user interface screens to
        determine the security implications of the new user interface screens.
      Recommendation 4: We recommend that the Office of the Chief Information Officer IT
        Security, in conjunction with the SBA Office of Capital Access, initiate the process of
        reauthorization of E-Tran for operation due to the changes to the operating environment.
      Recommendation 5: We recommend that the Office of the Chief Information Officer
        implement a Quality Assurance program that reports compliance at the project level to the
        ESC and the BTIC, at regular intervals.
      Recommendation 6: We recommend that the Office of the Chief Information Officer
        implement an Independent Verification and Validation program for the LMAS IIP that tests
        and validates that each IIP meets its program and functional requirements.
The LMAS IIP Executive Steering Committee (ESC) chaired by the Deputy Administrator, Marie Johns,
reviewed the recommendations on February 8th. The ESC’s response to each recommendation is
outlined in section 3.



2

                                                  15
    2. Background
           The table below identifies the offices that own each project. All the projects are gov-
    erned by the LMAS-IIP Executive Steering Council (ESC) and are subject to review by the OIG.
    In August 2012, OIG began an audit of LMAS IIP. The initial results were briefed on
    December 17, 2012.


                                     Table I: LMAS-IIP Project Owners
     IIP Project                                             Owner

     R12                                                     Office of the Chief Financial Officer (OCFO)

     Incremental Migration of User Interfaces                Office of Capital Access (OCA)

     Port to New Version of COBOL                            OCA

     Migrate from Sybase to Oracle                           OCFO

     Perform Root Cause Analyses                             OCFO

     Implement Improvements                                  OCFO

     Document New Environment (Loan Accounting)              OCA

     Unisys Bridge/Maintenance                               Office of the Chief Information Officer (OCIO)

     LMAS-IIP Direct Materials and Services (Formerly        OCA/OCFO
     called Hosting)
     LMAS-IIP Infrastructure                                 OCIO




3

                                                        16
3. Response to OIG Recommendations
    3.1. Recommendation 1 Response
Recommendation: We recommend that the SBA adopt a new Incremental Improvement Project
under LMAS to facilitate the transfer of data and move its new COBOL code to a full production
environment.
The ESC concurs. This effort will be aligned with the agency’s overall data center consolidation
strategy.


    3.2. Recommendation 2 Response
Recommendation: We recommend that the SBA ensure that the Root Cause Analysis Project
conforms to the scope originally approved by the BTIC. The Root Cause Analysis should: (1) identify
the most critical business needs of the SBA; (2) analyze remaining issues when each LMAS IIP is
completed; and (3) develop plans to prioritize additional projects to address SBA’s most important
business needs.
The ESC concurs that the Root Cause Analysis project should address SBA’s most important business
needs. As the scope of the IIPs matured with the submission of the FSAB request, the Root Cause
Analyses project was defined to address the agency’s critical business needs. For the past two years,
the ESC has received updates on the Root Causes Analyses projects and concurred with the scope of
the project. SBA’s remaining issues are analyzed and prioritized within each SBA organization’s
operations and maintenance activities.


    3.3.         Recommendation 3 Response
Recommendation: We recommend that the Office of the Chief Information Officer IT Security
perform a Security Impact Analysis on the E-Tran user interface screens to determine the security
implications of the new user interface screens.
The ESC concurs with the recommendation for IT Security to perform a Security Impact Analysis on E-
TRAN. SBA policies for enhancing an existing accredited system by obtaining approval from the
Change Control Board (CCB) and Enterprise Change Control Board (ECCB) were followed. However,
the ESC is agreeable to IT Security reviewing the security implications of the new user interface
screens.


    3.4. Recommendation 4 Response
Recommendation: We recommend that the Office of the Chief Information Officer IT Security, in
conjunction with the SBA Office of Capital Access, initiate the process of reauthorization of E-Tran
for operation due to the changes to the operating environment.
The ESC concurs with the recommendation for IT Security to perform reauthorization of E-TRAN. The
SBA policies for enhancing an existing accredited system by obtaining approval from the CCB and
ECCB were followed. Given the increased functionality of E-TRAN, the ESC is agreeable to performing
        the security reauthorizations as requested by OIG.
4
                                                 17
    3.5. Recommendation 5 Response
Recommendation: We recommend that the Office of the Chief Information Officer implement a
Quality Assurance program that reports compliance at the project level to the ESC and the BTIC,
at regular intervals.
The ESC concurs with the recommendation for OCIO to implement a QA program that reports at the
project level to the ESC and BTIC.


    3.6. Recommendation 6 Response
Recommendation: We recommend that the Office of the Chief Information Officer implement an
Independent Verification and Validation program for the LMAS IIP that tests and validates that
each IIP meets its program and functional requirements.
The ESC concurs with the recommendation for OCIO to implement an Independent Verification and
Validation program for the LMAS IIP that tests and validates that each IIP meets its program and
functional requirements.




                                               18
